CERTIFICATE OF WORD COUNT
NO. 20-649
Level the Playing Field, et al.,
Petitioners,
v.
Federal Election Commission,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the INDEPENDENT VOTER
PROJECT, ET AL. AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONERS contains 4049 words,
including the parts of the brief that are required or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
December 10, 2020

SCP Tracking: Briggs-99 East "C" Street-Cover Cream

